HHS/OIG-Audit--"Report on the Audits of the National Institutes of Health's Trust Funds, the Cooperative Research and Development Agreements, and Royalties for Fiscal Year 1994, (A-17-95-00044)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Report on the Audits of the National Institutes of Health's
Trust Funds, the Cooperative Research and Development Agreements, and Royalties
for Fiscal Year 1994," (A-17-95-00044)
February 21, 1996
Complete Text of Report is available in PDF format
(2.42 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report presents the results of Ernst & Young's (certified public accountants)
audits of the three subject National Institutes of Health's (NIH) Funds for
Fiscal Year 1994. The Ernst & Young auditors reported that they could not
express an opinion on each Fund's financial condition because NIH management
was unable to provide the auditors with sufficient competent evidential matter
to support the material account balances on the statements of financial position.
The auditors also reported several significant deficiencies in the design and
operation of the internal control structure, and were unable to determine whether
management complied with applicable laws and regulations. Ernst & Young
recommended that a Fund manager be selected to oversee the; (a) maintenance
and preparation of financial statements, (b) drafting of an accounting policies
and procedures document, (c) preparation of client assistance supporting schedules,
and (d) timely and accurate recording of the Funds' transactions. The NIH officials
concurred.